<html>
<title> - THE NORTH-SOUTH SUDAN CONFLICT 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                  THE NORTH-SOUTH SUDAN CONFLICT 2012 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2012

                               __________

                           Serial No. 112-150

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                         U.S. GOVERNMENT PRINTING OFFICE 

74-002 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 








                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California<greek-l>
TOM MARINO, Pennsylvania             DONALD M. PAYNE, New Jersey--
ANN MARIE BUERKLE, New York              deceased 3/6/12 deg.
ROBERT TURNER, New York              RUSS CARNAHAN, Missouri



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Princeton Lyman, Special Envoy for Sudan, U.S. 
  Department of State............................................     6
The Honorable Nancy Lindborg, Assistant Administrator, Bureau for 
  Democracy, Conflict and Humanitarian Assistance, U.S. Agency 
  for International Development..................................    15
The Honorable Anne Richard, Assistant Secretary, Bureau for 
  Population, Refugees and Migration, U.S. Department of State...    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Princeton Lyman: Prepared statement................    10
The Honorable Nancy Lindborg: Prepared statement.................    17
The Honorable Anne Richard: Prepared statement...................    26
The Honorable Barbara Lee, a Representative in Congress from the 
  State of California: Letter from Members of Congress to the 
  Honorable Barack Obama dated March 30, 2012....................    42

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Ann Marie Buerkle, a Representative in Congress 
  from the State of New York: Prepared statement.................    62
Written responses from the Honorable Princeton Lyman to questions 
  submitted for the record by the Honorable Ann Marie Buerkle....    63


                  THE NORTH-SOUTH SUDAN CONFLICT 2012

                              ----------                              


                        THURSDAY, APRIL 26, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                  and Human Rights,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:28 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Good afternoon.
    Let me first apologize for our lateness. We did have a 
series of votes on the House floor. So, \1/2\ hour later, 
again, I do apologize for not convening on time.
    Before we begin today's hearing, I would like to 
acknowledge the tremendous verdict rendered earlier today by 
the Special Court for Sierra Leone in The Hague. The court 
found former warlord--and we all know about him--Liberian 
President Charles Taylor guilty of 11 counts of war crimes and 
crimes against humanity, ranging from pillaging to murder, to 
rape, to enslavement. Taylor is scheduled to be sentenced by 
the court on May 30th.
    As we all know, Taylor trained and armed the notorious 
Sierra Leonian rebel group known as the Revolutionary United 
Front, or RUF, which terrorized the country through acts of 
sexual violence, amputations, and forcible recruitment of child 
soldiers. RUF took control of Sierra Leone's diamond fields 
which provided revenue for their reign of terror and for 
Taylor, through funneling sales of Sierra Leone diamonds to the 
international market through Liberia.
    This court set a number of precedents. It is the first 
hybrid tribunal created by agreement of the United Nations and 
the Government of Sierra Leone. It is the first modern 
international criminal tribunal to complete its mandate. Its 
decision today marks the first time a head of state was 
indicted, tried, and convicted by an international tribunal.
    It now establishes the principle of accountability for 
leaders who violate international law. One hope is that those 
in Sudan who have been indicted by the International Criminal 
Court will one day meet the same fate as Charles Taylor.
    I would just note, parenthetically, that David Crane, who 
was the prosecutor of numerous people in Sierra Leone, was a 
frequent visitor to this subcommittee and did an outstanding 
job in bringing so many others to justice who committed such 
heinous crimes during that reign of terror.
    Today's hearing will examine the current conflict between 
the Republic of Sudan and the Republic of South Sudan, and the 
policy options for stalling a full-blown war that are available 
to the United States and the rest of the international 
community. As we meet here today, the two countries move ever 
closer to all out war, and some strategy to avert this 
eventuality must be devised soon, if it has not already been 
created. We hope to hear some insights on that. Our hearing 
should review what such a strategy should look like and, 
hopefully, will be implemented.
    The United States is one of the guarantors of the peace 
process that ended the second North-South civil war in 2005, 
but it did not end our responsibility alone to prevent what 
everyone believes would be a disaster for the two nations, 
their populations, and, likely, for the welfare of their 
neighbors as well.
    The U.N. and the African Union certainly bear some 
responsibility for working to restore peace. However, no 
lasting peace will be likely if other interested parties fail 
to play a positive role in this crisis.
    The Khartoum government is now talking about ``the spirit 
of jihad'' rising in the north. Jihad is often interpreted as a 
call for all true believers to help in the fight against one's 
enemy, although there are other definitions of working to make 
oneself a better person, but certainly that is not the 
application here.
    Sudan reportedly reached out to the Arab League to initiate 
discussions on the current crisis, and the Arab League might be 
able to convince Sudan's leaders to calm down their rhetoric 
and help them to see the negative end result of their 
warmongering. If Arab nations can support a workable plan to 
fulfill the provisions of the Comprehensive Peace Agreement 
that ended the second Sudan civil war, then they will have 
helped a nation, led by people who consider themselves Arabs, 
to create a sustainable future with peace and security.
    China imports 5 percent of its oil from Sudan currently. 
According to the Chinese Academy of Social Sciences, that total 
could rise soon to 10 percent, due to regional tensions in the 
Persian Gulf. Oil shipments from Sudan depend on both the 
Southern supply and the northern pipelines. War between the two 
would have a significant impact on China's ability to continue 
importing Sudanese oil. As a result, Beijing has been trying to 
mediate the current dispute. South Sudan President Salva Kiir 
has been in Beijing this week for discussions on ending the 
dispute between the two countries.
    While all nations must join in the effort to end the North-
South Sudan conflict, the difficulty of achieving a lasting 
peace is evident from the long history of North-South 
animosity, mistrust, and war. During colonial times, the 
Northerners and Southerners were treated differently. When 
independence finally came in 1956, the continuing estrangement 
of Muslim Northerners and Christian and Animist Southerners was 
established.
    The first civil war that began in 1955 was the result of an 
Arab-led government in Khartoum that broke promises of 
inclusion and marginalized some Southerners. The massacre of 
Northerners in the South only exacerbated the growing hatred 
between them. After 11 years of relative peace, the second 
civil war broke out in 1983, when the Sudan People's Liberation 
Army fought for independence of the South. The CPA not only 
ended the second civil war, it set the South on the road to 
independence, which was finally achieved in 2011.
    Unfortunately, although the peace agreement laid out the 
path to sustainable peace, but it was never fully implemented, 
as we all know. The genocide in Darfur distracted the 
international community from fulfilling the CPA, and nearly a 
year after South Sudan became a nation, there is no agreed upon 
border, the Abyei region remains in dispute, citizenship 
remains in dispute for those in border areas, and there is no 
agreement on how oil revenues are to be divided.
    With all these unresolved issues, some form of conflict was 
inevitable perhaps, especially between antagonists with a long 
history of mistrust. The animosity between leaders for both 
sides does not bode well for peace talks or for peace accords 
that would be sustainable. Both sides have taken actions that 
have made the situation we now face more difficult to resolve. 
But I would respectfully submit that a false equivalency will 
not help us to achieve, and especially those who have suffered 
so much, a lasting peace.
    Whatever the international community thinks of the South's 
capture of the oil junction town of Heglig, no nation will 
allow an antagonist to use a location as a staging ground for 
repeated attacks without retaliation. Sudan's Government has 
been brutally oppressing Darfur and, more recently, has been 
relentlessly attacking people in the Southern Kordofan and the 
Blue Nile States for months.
    Our committee has held multiple hearings on this terrible, 
terrible development. To equate months of vicious attacks that 
have killed or displaced thousands with the short-term 
occupation of a strategic town will neither placate the North 
into ending its cruelty against its own citizens, nor shame the 
South into withdrawing from the staging ground for assaults 
against it.
    I have met both Sudan President Omar Bashir and Southern 
Sudan President Salva Kiir. I found Bashir to be obstinate and 
uncaring about the destruction his armed forces have unleashed 
on his own citizens. President Kiir has been single minded in 
pursuing independence over Sudanese unity since he assumed the 
leadership of South Sudan in 2005.
    There have been numerous ceasefires and peace accords 
between the North and South over the years, none of them 
enduring. If we cannot devise a means of achieving a lasting 
peace, we may gain a brief halt in the fighting, but the war 
will inevitably resume at some point.
    We have today--and I will introduce them formally in a 
moment--very distinguished witnesses who are not just 
knowledgeable about the situation on the ground, but are 
playing a very constructive and a meaningful leadership part in 
trying to achieve peace in that region.
    I will introduce them shortly, but now will yield to my 
good friend and colleague, Ms. Bass, the ranking member, for 
any opening comments.
    Ms. Bass. Well, once again, Mr. Chairman, thank you for 
holding this critical and urgent hearing on the security crisis 
and brinkmanship that appears to have brought Sudan and South 
Sudan to the verge of war.
    I hope that in the course of today's hearing we gain new 
insight into how the alarming and dangerous course of events in 
recent days, and, indeed, over the last several months, can be 
reversed.
    On July 9th, 2011, the world enthusiastically, yet 
cautiously, watched as South Sudan declared its independence. 
Less than 10 months later, a number of very contentious 
disputes have yet to be resolved. These include the North-South 
border demarcation, citizenship rights of those living in the 
North and South, and arrangements regarding oil and related 
financial issues. These differences and recent military and 
political provocations by the governments of both Sudan and 
South Sudan now imperil the fragile peace and nation building 
made possible by the 2005 Comprehensive Peace Agreement.
    I am deeply concerned about what is already a crisis of 
immense and terrible proportions. Reports on recent events are 
horrific. In an Associated Press wire story, we learn, and I 
quote,

        ``War planes bombed the market and an oil field in 
        South Sudan, killing at least two people, after 
        Sudanese ground forces reportedly crossed into South 
        Sudan with tanks and artillery. The U.N. mission in 
        South Sudan confirmed that at least 16 civilians were 
        killed and 34 injured in bombings by Sudanese aircraft 
        in Unity State.''

    Another AP story suggests that Sudan has initiated war on 
its southern neighbor. It states, and I quote,

        ``South Sudan's President said its northern neighbor 
        has declared war on the world's newest nation just 
        hours after Sudanese jets dropped eight bombs on his 
        country.''

    It is critical that both governments immediately stop all 
cross-border attacks and return to diplomatic talks. Both 
governments should immediately establish a demilitarized border 
zone and commence with the Joint Border Verification and 
Monitoring mechanism. Sudan, in particular, must halt its 
reported aerial bombardments, most importantly, because of the 
toll in innocent civilians.
    Ambassador Lyman, I look forward to hearing you and your 
colleagues' interpretations as to whether these two nations 
are, in fact, at war. What constitutes a war?
    In either event, the alarm bells are ringing very loud, and 
the threat of full-scale war is dangerously high. I hope that 
you will be able to suggest ways that we, as American 
policymakers, and the wider international community can show 
strong support to bring these nations back from the brink and 
prevent a catastrophic return to conflict and losses of life, 
resources, and the opportunities to build a lasting peace.
    While we are trying to understand the specifics on what is 
taking place, I do know that it is imperative that all those 
with a vested interest in real genuine peace must show a strong 
unified front and speak with one voice, and demand an 
immediate, unconditional, and sustained end to attacks and acts 
of violence, as demanded by the U.N. Security Council in its 
statement on April 12th. I urge African leaders to forcibly 
make that demand as well. Strong international political will 
and pressure must support an immediate de-escalation of the 
current dangerous and lethal climate in order to facilitate 
renewed work toward forging a permanent peace.
    We must also urge the parties to halt their use of 
incendiary and uncompromising language which only fuels what 
already are high levels of mistrust and animosity. I was 
appalled to read remarks attributed to Sudan's President Bashir 
who was quoted in press reports as saying of South Sudan that 
there is to be ``no negotiation with these people,'' whom he 
earlier described as ``insects that must be eliminated.'' Such 
disturbing and offensive language is both unacceptable and 
irresponsible.
    Before I close, I would be remiss if I also didn't take a 
moment to speak about the mass atrocities in Darfur and today's 
conviction of Charles Taylor for war crimes and crimes against 
humanity involving Sierra Leone. There is tremendous need to 
ensure a comprehensive approach to the challenges facing the 
Sudans, and that includes addressing the continuing suffering 
in Darfur. This situation in Darfur is far from resolved, and 
we must remember that it is just as tied up in the conflict 
between North and South Sudan as the South Kordofan and Blue 
Nile States.
    Today's conviction of Charles Taylor and his involvement in 
extraordinary acts of human cruelty in Sierra Leone sends a 
strong and unequivocal message: We will hold those who turn a 
blind eye to human rights and the sanctity of life accountable 
for their crimes.
    Thank you very much.
    Mr. Smith. Ms. Bass, thank you very much.
    Ms. Lee?
    Ms. Lee. Thank you very much. First, thank you for giving 
myself the opportunity to sit in on this hearing, and thank you 
for your continued leadership on this and so many issues.
    I had had the privilege to serve on this committee, this 
subcommittee, for many, many years. I witnessed and worked with 
you on so many issues around the CPA, on sanctions, on the 
genocide that was taking place in Darfur, and all of the issues 
that were so important. Yes, so it is good to be here with you 
today.
    And I thank all the witnesses.
    Let me congratulate just for a minute our ranking member, 
Congressman Bass, for your leadership and for your commitment 
and your astuteness in terms of really wanting to see, 
especially on this issue, it being a bipartisan solution as it 
relates to what Congress can do to really help pull back the 
war drums that we are hearing now being beaten, and, also, to 
ensure that the humanitarian assistance can get in, and, also, 
for all of the issues that you both laid out in your very 
excellent opening statements.
    So, I will just stop and welcome the witnesses. I look 
forward to your testimony.
    But I want to just thank you for giving me the privilege to 
sit in with you and, once again, congratulations.
    Mr. Smith. You are always welcome, Ms. Lee, and thank you 
for being here and for your work on behalf of these very vital 
issues.
    Mr. Green?
    Mr. Green. Thank you, Mr. Chairman. I thank the ranking 
member as well and congratulate her.
    I, too--or perhaps I shouldn't say, ``I, too''--I am an 
interloper, not having been a part of the committee. I think 
when I was last here we were talking about human trafficking 
and there are still great issues that have to be dealt with in 
the area of human trafficking.
    I am honored to be here today to hear these outstanding 
witnesses give us some intelligence on not only the crisis as 
it relates to war, but the greater human tragedy that is 
already taking place. I assure you that my concern for people 
and their being cared for properly is one that is not second to 
the war. The war, I want to see it end. I don't want war of any 
kind. But even while people are at war, we can still have the 
decency to treat human beings as human beings.
    So, Mr. Chairman, thank you so much, and I yield back any 
time that I have left.
    Mr. Smith. Thank you very much, Mr. Green.
    But very briefly, Ambassador Lyman, Princeton Lyman, has 
served as the U.S. Special Envoy for Sudan since March of last 
year. Immediately prior to that, he served as U.S. Senior 
Advisor on North-South Negotiations, where he led the U.S. 
team, focused on supporting ongoing negotiations between the 
parties to the 2005 CPA. Ambassador Lyman has held a number of 
important positions in the NGO sector and academia, in addition 
to the multitude of diplomatic assignments throughout Africa 
spanning several decades.
    Ambassador Lyman has recently returned from being on the 
ground in Khartoum and Juba, and we look forward to hearing his 
comments on the recent events in his second appearance before 
this subcommittee.
    Then, we will hear from Nancy Lindborg, who is the 
Assistant Administrator for the Bureau of Democracy, Conflict, 
and Humanitarian Assistance at USAID. Ms. Lindborg spent 14 
years as President of Mercy Corps, where she focused on 
international relief and development. During her time in Mercy 
Corps, she also served in a number of positions where she 
worked on issues related to foreign relations, foreign 
assistance, of course. No stranger to this committee, Ms. 
Lindborg testified last summer on a hearing on Somalia. We look 
forward and welcome her back.
    And then, Anne Richard, recently sworn in earlier this 
month, as the new Assistant Secretary for Population, Refugees, 
and Migration Bureau. Ms. Richard's previous government service 
includes service in the State Department, the Peace Corps, the 
Office of Management and Budget. She also worked on the Council 
on Foreign Relations, the International Rescue Committee, and 
was part of the team that founded the International Crisis 
Group.
    Ambassador Lyman, please proceed.

 STATEMENT OF THE HONORABLE PRINCETON LYMAN, SPECIAL ENVOY FOR 
                SUDAN, U.S. DEPARTMENT OF STATE

    Ambassador Lyman. Thank you very much. Thank you, Ranking 
Member.
    Congresswoman Bass, it is wonderful that you have assumed 
this position.
    Congresswoman Lee, it is so good for you to be here, and 
Congressman Green.
    I was privileged yesterday to be invited to that 
magnificent ceremony yesterday to honor Donald Payne, who 
graced this committee for so many years and embodied so much 
the spirit that this committee, this subcommittee, has had of a 
bipartisan approach to dealing with the issues of Africa, 
America's interest. I know the chairman has worked very closely 
with him, and we miss him greatly, but it is wonderful to see 
this strong, continuing interest from this committee. So, thank 
you very much.
    Mr. Chairman, I would ask that the full testimony be 
submitted for the record, if that is okay, and let me just try 
to summarize the situation and what we are doing now.
    The tension along the border, frankly, has been great for 
almost a year now, since the conflict began in Southern 
Kordofan/Blue Nile. I will come back to that. But there have 
been brushes of conflict along the border off and on for some 
time.
    That led South Sudan in early April, April 10th, to move 
forward and occupy the area of Heglig. Now the international 
reaction was immediate and unified, urging South Sudan to 
withdraw. The reason was that it raised the conflict to a new 
level. It is a disputed area, et cetera, but we knew that it 
would raise the level of conflict to a new level, and it did. 
South Sudan did agree to withdraw, but had to withdraw under 
pressure because of the counterattacks coming from the 
Government of Sudan.
    Mr. Chairman, you put your finger on it when you talked 
about the security concerns because that is at the heart of it. 
Regardless of the disputed claims law of where the border lies, 
the fundamental concern for South Sudan is that that border has 
been used as a staging ground for attacks of militias into 
South Sudan. Having a secure border is in their interest, and 
therefore, it gives them an interest in seeing a resolution, 
and a fair resolution, of the conflict in Southern Kordofan and 
Blue Nile, as well as of the border.
    On the side of the Government of Sudan, they also have 
major security concerns, but they mischaracterize, in our view, 
the nature of the problem. Because the problem derives not only 
from the uncertainty over where the border is and all of that, 
but the conflict in Southern Kordofan and Blue Nile they feel 
can be addressed if only the South would not lend any support 
to it, the border can be sealed off, and they can pursue a 
largely military approach to the resolution of that conflict.
    That is wrong on several grounds. It won't be solved 
militarily. It is a political problem for the Government of 
Sudan to address with the people of the Nuba Mountains and the 
people of Blue Nile. And just trying to seal the border and go 
after the South for whatever support might be flowing North 
doesn't get at the problem. So, it doesn't solve their security 
interests, either. And that is how we have got to get back and 
dealing with the real one.
    You asked a good question, Congresswoman Lee, about how 
you--I think it was you, Congresswoman Bass--about how you 
define whether they are at war or not. Actually, it was an 
issue when I got there because, you know, when two sides are 
shooting at each other, it looks like war.
    But what I was struck by was neither side wanted us to 
characterize it as such. People on both sides, regardless of 
some of the rhetoric, said, ``We don't want to go to full-scale 
war. We really don't. Please don't call it a war, because, yes, 
we are shooting at each other on the border, but we can't go 
back to full scale war.'' And that, I heard from people in 
Khartoum and in Juba.
    The question is, how do you manage a situation like this 
without gravitating into war? That is why this situation was so 
dangerous in the conflict over Heglig.
    Now the international reaction was sudden, quick, unified 
that the parties have to get back on either side of the border. 
I went right away to Juba and then to Khartoum. With a unified 
international community, we worked together on what would be 
the way out. And it is very much along the lines that the 
members of this subcommittee have mentioned.
    What we have said is that you need immediately a ceasefire, 
immediately thereafter going to a process whereby the border 
can be demilitarized and monitored. The irony is the two sides 
had already agreed to a mechanism for doing that. They just 
never implemented it. It is called the Joint Border 
Verification and Monitoring Mission, which would have both 
sides monitoring a 20-kilometer-wide demilitarized zone, 
supported by the U.N. peacekeeping operation from Abyei, the 
force commander with some of his troops, to provide security 
and assistance.
    What we said was you have got to get back and implement 
that program. There has to be a stop to the bombing. There has 
to be a stop to the conflict, and you have to get back to the 
negotiations.
    We worked with a lot of people around the world, that that 
message would become loud and clear to both parties. And we 
were very pleased that the African Union Peace and Security 
Committee meeting on Tuesday didn't just settle for a general 
hortatory statement, ``Oh, please come back and get back to 
peace talks.''
    They took a very concrete set of steps with very tight 
timelines and said to the parties, ``This is what you've got to 
do.'' And it was a message that what is going on between those 
two countries affects the whole region. It affects all of East 
Africa and beyond. The African Union was sending that message 
in a very strong way.
    They, then, asked the rest of the international community 
to back that up. We are doing that. We are calling on other 
partners. We are hoping the Arab League will back that same 
resolution up today. They are meeting today. And the U.N. is 
working on a resolution as well, to bring as much unified 
international pressure to bear on the parties, that this kind 
of way of going at it, this kind of back-and-forth conflict is 
not the way; they must get back to the negotiations.
    After that resolution was passed, we are waiting today. 
Each government is supposed to make a statement on cessation of 
hostilities. We hope they will do so. The border has quieted 
down in the last 2 days. We hope they will both agree to that 
right away and that the specific talks on the border can start 
next week.
    Now I want to also address--and the chairman has raised 
this, and you all have raised this--the situation in Southern 
Kordofan and Blue Nile. There will be no real security on the 
border until that situation is addressed. It is both a 
political problem but it is also a tremendous humanitarian 
problem.
    We have, since the middle of last year, been raising the 
issue of a looming humanitarian crisis in these areas. We have 
been urging the government to open up humanitarian access to 
them.
    When the government objected to western NGOs, they said, 
``Oh, you're just going to come in; you are going to set up a 
new CPA. You are going to split that area off, like you did the 
South. We are not going to let it happen,'' then the U.N., the 
Arab League, and the African Union said, ``Okay. We'll do it. 
No western NGOs. We are ready to do it.'' They didn't still 
approve that, and we have not stopped doing that.
    But you will hear from Nancy how serious that situation is 
and what we are trying to do on that. We continue to press on 
that.
    But it is more not only the humanitarian; what we had hoped 
was that, if we could get humanitarian access, it would almost 
de facto lead to a cessation of hostilities in that area and 
create a climate for political talks because there must be 
political talks.
    We have talked to the SPLM-North, the people who are 
fighting in Southern Kordofan and Blue Nile. They say that, 
``If humanitarian access is announced by the Government of 
Sudan, we are prepared for cessation of hostilities and to 
cooperate in any way we can to let the food and the assistance 
come in.'' So, we have to get to that. The U.N., others, like 
Prime Minister Meles of Ethiopia, are working to encourage 
those political talks which must take place.
    As we work with the parties, and we are working very 
closely now with all the international actors, particularly 
with the African Union and the African Union High-Level Panel, 
but also with others, like China--you mentioned China--and with 
all the P5. You mentioned, Mr. Chairman, and you are right, 
that the Chinese have stepped up more, and we welcome that. I 
have been in touch with my counterpart. They have an envoy for 
Sudan.
    Secretary Clinton leads next week the Security and Economic 
Dialogue in Beijing with China that we have every year. Sudan 
will be high on the agenda. I will be accompanying her, and we 
will have at least two meetings on Sudan specifically during 
that time, and hope to strengthen our own cooperation between 
China on this.
    The final thing I would like to mention is the seriousness. 
We have to look ahead. And Congressman Green put his finger on 
this. We get wrapped up in the conflict, of course, but there 
are some deep, long-term economic/humanitarian problems in both 
Sudan and South Sudan which the leadership of those two 
countries must, must address, and they must organize 
themselves, get their productive sectors, including the oil 
sectors, going again. So they can begin to address these. 
Because the long-term situation is not good, and Nancy will go 
into that in some detail.
    The last thing, and it is a little out of my line to do 
this, but if I could make a suggestion to the committee, we are 
trying to get not only all the diplomatic and all the 
countries, but others to write letters to the leaders of the 
two countries. This committee has a long, very distinguished 
history of concern. We are happy to provide you whatever 
detailed information you might want. But I think hearing from 
Members of Congress about the very things that you have said in 
your opening statements could actually be very helpful. It 
would reinforce the messages that we are trying to get from 
countries in the Middle East and countries in Africa, countries 
in Asia, to the parties, that they must move away from this 
kind of a conflict and to resolving it.
    So, thank you, Mr. Chairman. I am happy to answer questions 
on this. But thank you very much.
    [The prepared statement of Ambassador Lyman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Thank you very much, Ambassador Lyman, and we 
will follow up on that idea. It is a great one. I am sure many 
of our colleagues, both sides of the aisle, will be eager to 
sign on. So, thank you for that very good suggestion.
    Assistant Administrator Lindborg?

     STATEMENT OF THE HONORABLE NANCY LINDBORG, ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Lindborg. Thank you. Thank you, Chairman Smith, Ranking 
Member Bass, and Congresswoman Lee, and Congressman Green, as 
visitors to this committee. Thank you for the leadership and 
the concern that this committee continues to demonstrate.
    Congratulations, Congresswoman Bass, on your leadership 
position.
    I appreciate very much the opportunity to be here today to 
make some comments.
    Just picking up on what Ambassador Lyman was saying, as you 
well know, these are two countries that have suffered from 
extraordinary humanitarian suffering for many decades. People 
throughout the region have been in a situation of need. The 
American people have long been a helping hand and a friend.
    On the basis of last July's really joyful celebration, we 
were on a pathway to peace, a possibility of moving out of some 
of the worst suffering. We cannot afford that those fragile 
gains are imperiled by the possibility of moving into war once 
again.
    Congresswoman Bass, as you noted, the actions and 
incendiary rhetoric really of both governments have got to be 
reined in. We have got to help pull them back from the brink.
    My full testimony, which I ask be submitted to the record, 
which details some of the issues that present serious 
humanitarian concerns, from Darfur to the fighting that has 
continued in Jonglei. But I want to really focus on two areas 
today.
    The first is what Ambassador Lyman noted is happening in 
the two areas of Southern Kordofan and Blue Nile. The fighting 
that erupted there last year has escalated into a full blown 
cross border conflict. It has already displaced, killed, and 
severely affected over 0.5 million people. It has disrupted 
harvests and services. It has derailed a lot of the critical 
work that was underway as a result of the 2005 CPA.
    In both areas, the Government of Sudan continues to block 
the international community from reaching a population that is 
desperately in need of help. The sustained aerial bombardment 
that you all noted by the Sudan armed forces has terrorized 
communities, and it is keeping people from their fields and 
from food.
    We are seeing just this last week a spike of very severely 
malnourished children arriving in South Sudan from Southern 
Kordofan. We very much fear that these children hint at some 
very tragic situations unfolding where we are unable to reach.
    Our food security experts predict that between 200,000 to 
250,000 people in Southern Kordofan are already facing a 
serious food emergency. That is just one step short of famine. 
In Blue Nile, households will be at that food emergency phase 
by August.
    As Ambassador Lyman indicated, we are continuing to call on 
all parties to the conflict to allow immediate and full access, 
to agree to the tripartite U.N., African Union, and Arab League 
agreement. The solution that is necessary is full access and to 
enable humanitarian assistance to reach these people in need. 
With the rains approaching, time is not on our side.
    I wanted, secondly, to underscore a very equally worrisome 
in a different way situation going on in South Sudan because of 
the heightened economic crisis. The decision to halt oil 
production will have critical impact on the people of South 
Sudan. That was 98 percent of the government revenues, and it 
has prompted an austerity budget. That means it will be 
impossible for South Sudan to fund some of its core operations, 
including to sustain some of the really important progress that 
has been made over the last 6 to 7 years in improving school 
attendance, access to clean water, health. We now have 68 
percent of children in school. This is extraordinary.
    The U.N. Food and Agricultural Organization, however, just 
reported a new study, that almost half of South Sudan, 4.7 
million people, will be food insecure in 2012. That includes 
2.7 million people who are already requiring food assistance to 
survive.
    I mean, all of these numbers are so enormous that it is 
difficult to keep in mind the people, the women, the children, 
who are behind those numbers. But it does help put down the 
magnitude of what we are talking about.
    At the same time, we continue to have people returning from 
the North. There are some 400,000 who have already returned, 
coming from urban environments to live in largely rural areas.
    A direct confrontation between the South and the North 
would absolutely further derail the ability to make progress on 
the humanitarian situation, whether in the South or in Darfur, 
in Jonglei, and in the three areas. Unfortunately, we are 
already seeing many donors having to shift their resources from 
a development agenda to a humanitarian agenda. So, we are at 
risk of losing a lot of that progress. On April 20th, in the 
South, in South Sudan, the U.N. has already gone into an 
emergency crisis footing, based on about 20 indicators. The 
continued escalation of the conflict will only exacerbate a 
very dire humanitarian situation, and it will be the women, the 
children, the very vulnerable and longtime marginalized 
communities who will be most affected.
    I would just close by echoing the statement that President 
Obama made this weekend when he spoke directly to the people of 
both South Sudan and Sudan, saying that ``the Presidents of 
both countries must have the courage to return to the table to 
negotiate and resolve these issues.''
    These are people who have withstood decades of hardship. 
They deserve a better way forward.
    Thank you.
    [The prepared statement of Ms. Lindborg follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Thank you very much, Ms. Lindborg.
    Secretary Richard?

 STATEMENT OF THE HONORABLE ANNE RICHARD, ASSISTANT SECRETARY, 
BUREAU FOR POPULATION, REFUGEES AND MIGRATION, U.S. DEPARTMENT 
                            OF STATE

    Ms. Richard. Good afternoon, Chairman Smith, Ranking Member 
Bass, members of the committee, and visitors. Thank you for 
including a discussion of the complex situation for refugees in 
this hearing on the crisis in South Sudan and Sudan.
    I am very pleased to be able to appear before the committee 
with my two colleagues. Even though I have been Assistant 
Secretary of State Department's Bureau of Population, Refugees, 
and Migration, or PRM, only since the beginning of April, I 
have worked very closely in the past with Nancy Lindborg and 
with Princeton Lyman. In fact, Ambassador Lyman once headed 
refugee programs at the State Department. I hope I can emulate 
the leadership he displayed in that era. More importantly, our 
three offices routinely work very closely together on these 
challenging humanitarian issues.
    Sudan has both hosted and generated hundreds of thousands 
of refugees and internally displaced persons over the years. 
Today I would like to briefly comment on the newest Sudanese 
and South Sudanese refugees and on the situation of the South 
Sudanese who live in Sudan. And I would like to outline the 
multiple refugee movements in the region.
    The newest refugees are those generated by conflict within 
Sudan along the disputed border, as you have heard the other 
witnesses discuss already. They have fled into South Sudan and 
Ethiopia, and they number some over 140,000. Some have fled 
even to Kenya, principally fleeing the fighting and aerial 
bombings in Southern Kordofan and Blue Nile States. 
Additionally, there are over 8,000 new South Sudanese refugees 
in Ethiopia and Kenya who are escaping the murderous cattle 
raiding and ethnic hostility between the Nuer and Morley 
peoples.
    There are always refugee assistance challenges in an 
emergency. In this case, new camps have had to be built for the 
influx of Sudanese refugees in Ethiopia and South Sudan. 
Finding adequate clean water supplies for over 90,000 refugees 
in Upper Nile State has paradoxically been quite difficult in a 
country that is known for being widely flooded for much of the 
year.
    Humanitarian agencies are racing against the clock with the 
rainy season beginning in earnest this month. We have so far 
put $34 million toward the emergency response in South Sudan 
and Ethiopia through the Office of the U.N. High Commissioner 
for Refugees, the International Organization for Migration, or 
IOM, and some nongovernmental organizations.
    The greatest challenge, however, has been protecting 
refugees, maintaining the security and neutrality of refugee 
camps, ensuring that refugees are safely moved away from 
volatile borders and out of the potential line of fire, and 
that any combatants are disarmed and/or separated, and that 
women and girls are safe from sexual assault or other violence.
    Nationality and citizenship were early issues in the 
Comprehensive Peace Agreement, or CPA, process. One concern was 
that some would be left stateless if Sudan became two 
countries. Regrettably, these issues remain part of the 
unfinished business of the CPA.
    Before the latest round of fighting, both governments had 
agreed to the idea of a presidential summit that would have 
addressed many of these outstanding issues, including 
citizenship and residency. Unfortunately, that presidential 
summit has not yet occurred.
    An unknown number of people of Southern heritage continue 
to live in Sudan. Estimates range between 300,000 and 700,000. 
This includes people who have never lived in or even been to 
South Sudan. Safe and orderly movement of those who either 
choose or might be forced to return to South Sudan is a high 
priority and a major preoccupation of two of our key partners, 
UNHCR and IOM. Reception and integration in South Sudan are 
also ongoing critical concerns. The most immediate concern is 
that these people not be victimized as the level of conflict 
and rhetoric between South Sudan and Sudan increases.
    These two situations, new refugees and potential mass 
movements from Sudan to South Sudan, are part of a broad, 
interlocking set of humanitarian concerns and refugee movements 
in the region.
    I sketch these out in my testimony. Mr. Chairman, I would 
like to request that the full testimony be submitted for the 
record.
    Mr. Smith. Without objection, yours and Ms. Lindborg's will 
be.
    Ms. Richard. Notably, the testimony touches on South Sudan. 
South Sudan is also host to over 23,000 Congolese and Central 
African refugees who have fled attacks by the infamous Lord's 
Resistance Army. There are another 5,000 refugees from 
Ethiopia's Gambela region.
    And then, in Sudan proper, Sudan itself, there are around 
150,000 Eritrean refugees in 12 camps in the east and in 
cities. There are as many as 40,000 refugees from Chad living 
in Sudan.
    And then, of course, several of you have mentioned already 
the situation in Darfur. As you know, there are some 280,000 
Darfur refugees in Chad as well as over 1.5 million displaced 
people within Darfur itself.
    Finally, as Ethiopia and Kenya are called upon to host new 
Sudanese and South Sudanese refugees, they are also facing 
continued inflows of Somali refugees fleeing famine and 
violence in Somali.
    The point that my colleagues in the Population, Refugees, 
and Migration Bureau wanted me to be sure to make was, even as 
we analyze the recent arrivals across the border from Sudan 
into South Sudan, we must keep in mind the large number of 
refugees and displaced people who are being helped and in need 
of protection throughout the region.
    In all of these cases, PRM's primary concerns are 
protection and achieving genuinely durable solutions for the 
displaced, a chance to go home again or restart their lives in 
a new home. Life-saving and life-sustaining assistance are 
means to these ends.
    For example, the aid provided through PRM partners is used 
to transport vulnerable refugees away from a border, to clear 
land for new camps as necessary, to register and document 
refugees, to drill for sufficient clean water, and to provide 
the basics of sanitation, adequate food, minimum healthcare, 
and shelter, as well as primary education and youth programs 
that will protect children from being recruited as soldiers.
    Having visited this area in conjunction with my previous 
work, I am saddened by the continuing hostilities between and 
within these two nations, while I am also honored to be leading 
a bureau that provides much-needed assistance to the many 
affected people.
    I am also grateful for the excellent collaboration with our 
Africa Bureau, Special Envoy, and USAID colleagues.
    Thank you once again for the opportunity to highlight some 
of our work and concerns. I am very appreciative that you are 
holding this hearing.
    I would be happy to answer any of your questions.
    [The prepared statement of Ms. Richard follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much, Secretary Richard.
    Let me begin with Ambassador Lyman. In your testimony, you 
point out that the U.S. is not working alone to diffuse the 
crisis, and you point out that the AU High Implementation 
Panel, led by a strong team; it's led by three Presidents, 
including the Burundian, the South African, and the Nigerian 
former Presidents.
    You were the ambassador to two of those countries, South 
Africa and Nigeria. I am wondering, perhaps more than anyone 
else, the insights you might be able to share with us about how 
well they are doing in terms of an action plan or a strategy, 
what the outlines of that plan might look like. Are they 
personally involved, and to what extent, in this effort, if you 
could, Mr. Ambassador?
    Ambassador Lyman. Thank you, Mr. Chairman.
    The Panel has done extraordinary work keeping the parties 
at the table, helping with technical help, defining the issues 
very much, moving them toward agreement. I think it is the 
general belief of former South African President Thabo Mbeki 
that it is the responsibility of the leaders of these countries 
to reach the conclusions, make the tough compromises, and do 
it. They haven't been willing to do that on many of these 
issues, like Abyei or borders.
    It is interesting that the African Union communique 
yesterday, Tuesday, said, at the end of 3 months, we are just 
going to have to put solutions on the table that the parties 
must accept.
    The second thing for the Panel is to make sure the parties 
know that its work is backed up by a very strong international 
community. That hasn't been as clear to the parties as it is 
now. The U.N. Security Council is now more unified than it has 
been on Sudan. With the African Union communique, the Arab 
League coming in along the same lines, then the Security 
Council coming in along the same lines, we hope that will 
strengthen the Panel's political weight, if you will, as they 
bring these parties to the table.
    Very specifically, they will start next week. I think next 
week they will start on this border, to set up this border 
demilitarization and verification system, and then set up a 
schedule for the parties to come back to prepare for a summit 
that would address how to negotiate the big issues like oil and 
other things.
    We had a lot of progress before this latest crisis with the 
Panel--I was there with the parties, et cetera--on how to deal 
with the very difficult oil issue. They would get back to that. 
It is not impossible to solve that issue if they get back to a 
collaborative approach. The Panel helped bring them very close 
to an understanding of how to do that.
    Mr. Smith. Would you say their working point is in terms of 
trying to craft, first of all, an end of hostilities and then 
deal with some of the systemic issues?
    Ambassador Lyman. Yes, both parties, both countries have 
said that the AU Panel is the one they recognize as the one to 
facilitate the negotiations and bring people together.
    I will tell you one of the things that bothers me about the 
situation between the two countries is that they don't have 
enough communication between themselves on a regular basis. If 
it weren't for the Panel, they might sometimes never get 
together. It is the Panel that convenes them.
    But we have said over and over to people in the government, 
``That's fine. That's good. But you should be talking to your 
counterparts all the time.'' We did it all through the Cold 
War. And they need more of that. There is some of it going on. 
But now the Panel is the one that brings them together to put 
together these border agreements and things like that.
    Mr. Smith. What is the relationship of the AU HIP--is that 
the proper way of saying it, the Implementation Panel, the 
High-Level?--with the Chinese Government? Do the three 
Presidents have access to Beijing, and does Beijing respond?
    Ambassador Lyman. China hasn't played a major role with the 
Panel up until quite recently. The way the Panel was structured 
from the beginning, there are two observer missions. There is 
the U.N. and ourselves are official observers. Others have been 
invited in.
    Thabo Mbeki has been now more in touch with the Chinese and 
I think would like them to play more of a role, to be present 
like some of us are when these negotiations take place. I am 
going to raise that next week when I am in Beijing.
    Mr. Smith. Can I just ask you, Ms. Lindborg, you mentioned 
the situation in Southern Kordofan and Blue Nile has severely 
affected over 0.5 million people. How does that break out in 
terms of how many people have actually lost their lives? How 
many have been displaced in terms of actual numbers? What are 
the specifics on that?
    Ms. Lindborg. Loss of life is always difficult to estimate, 
but we are seeing about 28,000 have come into the South. There 
has been another outflow North into Khartoum, around the 10,000 
or so figure. We estimate that there are about 300,000 who have 
been affected who are still inside Southern Kordofan, and many 
of those are displaced. Of that number, the estimates are about 
225,000 to 250,000 who are in this serious food emergency 
crisis phase. Those are the people that we are most concerned 
about now. That is where the malnourished children population 
is coming from.
    Mr. Smith. You talked about limited access. How would that 
break out? Are we talking about up to 250,000 people and a lack 
of ability to have access to them with humanitarian supplies 
and medicine and food?
    Ms. Lindborg. That is right. In both Southern Kordofan and 
in Blue Nile, there is some limited access to the areas that 
are controlled by the Government of Sudan.
    Mr. Smith. They are the ones that are restricting access?
    Ms. Lindborg. They have blocked all access of all 
international actors into the areas controlled by the SPLM-
North in the two areas.
    Mr. Smith. So, that is what happened previously, too, 
because that is what it was?
    Ms. Lindborg. Correct.
    Mr. Smith. So, they are just continuing. But now the 
consequences are growing more severe with more people now being 
affected? Would that be correct?
    Ms. Lindborg. That is right, and as people's harvests 
continue to be disrupted and their access to food is 
interrupted.
    Mr. Smith. You brought up an interesting, disturbing, but 
interesting point from your recent return from one of the 
states in South Sudan, that people are having a hard time 
adjusting from the rural to the urban. Did I get that right? 
Yes, adjusting to the rural from the urban. Is that because 
they are not farmers and they just don't--could you elaborate 
on that?
    Ms. Lindborg. Yes. You know, there is a significant 
population of almost 400,000 who have now returned from Sudan 
to South Sudan. I was just, a few weeks ago, in Northern Bahr 
el Ghazal, which is one of the states bordering Sudan, and met 
with a number of people who they were not farmers. They did 
laundry. They did small trade. They did a variety of more 
urban-based livelihoods, and they are now in a position of 
being very rural.
    So, a lot of the assistance that we have provided has been 
to help that reintegration and to work both with the families 
who have returned as well as the local governments on how to 
establish alternative livelihoods, how to allocate land, how to 
enable that return. All of this is imperiled, both by the 
shrinking budgets in South Sudan, because of the oil shutdown, 
and as more resources have to go toward those populations that 
are at risk through other conflicts. So, we have a squeeze 
going on, and a conflict escalation will just exacerbate a 
really dire set of humanitarian challenges.
    Mr. Smith. Ambassador Lyman, there are four current U.N. or 
peacekeeping deployments in South Sudan, Abyei, and Darfur. 
What role are they playing in mitigating this ever worsening 
crisis? And is there a need for additional deployments or for 
the U.N. and/or AU to reconfigure a new deployment?
    Ambassador Lyman. There are, as you say, four; there are 
three peacekeeping operations and one Special Envoy. The 
biggest two operations, one is UNAMID in Darfur, which just 
focused on Darfur, and, then, the new mission in South Sudan. 
They have done a lot of work on internal problems in South 
Sudan; for example, the fighting that broke out in Jonglei that 
pit two ethnic groups against each other, thousands of people 
involved, several hundred killed. They have been working very 
closely with the government to try to address that and similar 
problems inside South Sudan; also, to try to get verification 
of what is going on on the border. But they are not allowed to 
cross that border.
    Then, there is a mission that was set up in Abyei itself. 
That, as you know, is a disputed area. It was occupied 
militarily last year by Sudan. To get them to withdraw, and 
they have almost but not entirely withdrawn, a new peacekeeping 
force was put in there, almost all Ethiopian troops. That 
peacekeeping force has done an exceptional job. They have kept 
the peace. For the first time in 3 years, there was a migration 
that the nomads could come in and leave. They have kept other 
entities from coming in just more recently. They patrol the 
whole area.
    But what has not happened is that the 100,000 Ngok Dinka 
who were displaced last year have not yet been able to return. 
So, there is more work that needs to be done.
    And then, there is a Special Envoy, Haile Menkarios.
    Now what the South wanted was, as you said, a new 
peacekeeping entity along the border. We did not think it was 
practical to try and have the U.N. patrol that entire border. 
It would have been huge.
    However, the Abyei force commander does have a mandate to 
work with them on this verification process. He has got 300 
troops designated to work with them on that.
    The U.N. Security Council is reviewing that mandate this 
month, in May. If more is needed for his mandate, they will be 
looking at it. So, I don't think we want to start putting yet 
another peacekeeping force in separately, but we want to 
support that border monitoring process.
    Mr. Smith. Are there sufficient U.N. peacekeepers and AU--
--
    Ambassador Lyman. There are sufficient ones in the South, 
in UNAMID. The question is whether the original idea that they 
only needed 300 to be the support mechanism for this is 
sufficient. We have to see as they get back into the 
discussions. He had agreed, the force commander, that that was 
sufficient. Whether this latest conflict changes that is 
something we have to look at very closely.
    Mr. Smith. Just two final questions.
    Secretary Richard, you talked about the $34 million that we 
are providing to you in ACR and to IOM and others. How much 
need is there, how much unmet need? I am sure UNHCR is 
gathering money, I know it is, from other donors. But are they 
meeting that call? Are people responding sufficiently? And what 
is the unmet need?
    If you could speak to resources versus access, you know, 
maybe all of you would like to speak to that? Does stockpiling 
of foodstuffs that can't get to people because the workers, the 
humanitarian relief workers, are precluded entry, mean that 
that food spoils and people die?
    Is $34 million enough? Is the EU coming forward with money?
    Ms. Richard. Mr. Chairman, I think, as usual, the U.S. has 
taken the lead in providing that assistance, and that it is a 
good start in getting needed aid to the people who need it. 
But, as you have heard, more people are coming across the 
border. They are severely malnourished. The rains are 
anticipated to start. And then, there will be real serious 
problems of getting access as the roads are washed out. So, it 
is a situation that is going to bear a great deal of watching.
    I just came from a meeting with the High Commissioner for 
Refugees who is in town this week. He met a little while ago 
with Secretary Clinton. One of the things he raised was his 
concern that, with so many things going on--and this was one of 
the crises that he mentioned, but he also mentioned Syria, the 
Sahel, and other concerns--there was so much going on, he was 
very concerned about having sufficient funding to do a good job 
everywhere.
    So, I would say at the moment we have made a good start, 
but certainly we have a lot of concerns that resources will 
continue to flow to this area.
    Mr. Smith. In terms of the refugee camps, when I visited 
Mukjar and Kalma Camp, I remember hearing multiple stories, and 
I have heard them here, obviously, from advocates, of security 
concerns, especially for women in terms of rape and abuse. The 
refugees that are flocking together in camps, who is providing 
security and how adequate is it?
    Ms. Richard. I share your concern for the women. What I 
understand is that the camps in the area we are talking about 
today are overwhelmingly female. They are women and girls and, 
also, women and children. So, in those kinds of situations, we 
always see security issues.
    I am so glad you raised this today. I met, last week or the 
week before, with a lot of our top partners in the non-
governmental organizations to say we have to put a very big 
spotlight on this very issue. Because sometimes people say, 
``Well, it is an emergency. There is nothing we can do right 
now to worry about preventing or responding to gender-based 
violence.'' But I consider it something that is very much a 
lifesaving measure to which attention must be paid during the 
emergency situation.
    In terms of who is providing security right now, I 
understand that there is a great deal of Southern Sudanese 
presence in both Unity State and Blue Nile. I mean, the local 
governments are involved, the state governments are involved, 
and there is a lot of movement. But in terms of who the 
vulnerable people are, I think they are overwhelmingly female 
and they are extremely vulnerable.
    Mr. Smith. One final question, and then I will yield to 
Ranking Member Bass.
    Ambassador Lyman, have you perceived any change, real or 
perception-wise, with the emergence of the Muslim Brotherhood 
and the more extremist Islamist groups that have emerged in 
Egypt, because there is a direct connection, obviously, with 
Khartoum and Cairo? Do you perceive any change?
    I mean, the calls for jihadists, we all know what the war 
in Southern Sudan was all about, the imposition of Sharia law, 
though it often gets forgotten. Now are we seeing a reemergence 
of that? And is that consolidation of radical belief in Cairo 
affecting Khartoum?
    Ambassador Lyman. Well, there are some extreme groups in 
Sudan. Some of them have been very critical of any movement on 
the peace process even or rights for Southerners in Sudan, you 
know, people who are still living there who have come from the 
South.
    I don't think it is the mainstream in Sudan. It is not the 
mainstream of Islam in Sudan. But those groups are there.
    As you said, the kind of rhetoric that President Bashir was 
using during this last crisis was very, very frightening and 
wrong. One of the things that the AU and others have said is 
rhetoric has to stop. Africa is very, very conscious of how 
much that kind of rhetoric contributed to the terrible events 
in Rwanda. So, there was an immediate gut reaction to that. I 
hope it doesn't inflame those kinds of radical elements you 
talked about.
    But they are there, but at this point they are not the 
mainstream. We are hoping that the Government of Sudan is 
conscious----
    Mr. Smith. But, again, is Cairo having an influence? 
Mubarak was no prize, and many of us met with him every time he 
came here or in Cairo, but----
    Ambassador Lyman. You know, the relationship now between 
Khartoum and Egypt is kind of evolving with the new government. 
The foreign minister from Egypt actually visited both Khartoum 
and Juba during this crisis to try to calm the situation down. 
But I really don't know about what might be going on between 
the parties.
    Mr. Smith. Could you ask around? And if you get the 
information, let us know?
    Ambassador Lyman. I can ask and let you know. Thanks.
    Mr. Smith. I do have one final question, if you don't mind, 
more of a statement, if you want to respond to it. I am 
concerned--and you may be, too--about the sense of equivalency 
between Salva Kiir and Bashir. One has been indicted by the 
ICC, as we all know; the other has not and is, I think, a very 
good man.
    But it reminds me of what happened in the Balkans. I 
remember, after the invasion of Croatia, I went to Vukovar and 
all these places that are under siege by Slobodan Milosevic. 
When I talked to our interlocutors at the EU, they would say, 
``Oh, they are both at fault. They are both at fault.'' And 
there was a sense of one is aggressing and attacking, using 
MiGs and every other means of destruction; the other is trying 
to defend themselves.
    At some point, a country responds, hopefully sooner rather 
than later, when its citizens and folks are being attacked and 
killed and maimed and the like. I just get a sense that that 
same thing is happening here. But maybe it is a diplomatic 
fiction, so that people can meet in rooms and hammer things 
out. But Bashir is clearly the perpetrator of these heinous 
crimes, not Salva Kiir.
    Ambassador Lyman. Mr. Chairman, you know, one of the things 
that I have said over and over again in Khartoum, because 
Khartoum says, you know, they are criticized more than the 
South or something like that. And I said, ``The reason you are 
criticized is the way you fight wars. You fight wars with 
civilian casualties, with the use of militias who are not under 
the rules of war. You don't fight like armies do in the 21st 
century. You commit terrible human rights violations. And you 
will be condemned by the international community if that is the 
way you carry out what you think of as your security 
concerns.'' And there is no question that that is the case and 
has been the case historically.
    Where we do call upon both parties in kind of an equivalent 
way is not to make the problem worse by the way they clash at 
the border or take risks with peace. For the South, I think it 
is a great challenge for them to come to an agreement with a 
government that they have many historical and current 
grievances with. We do encourage them to come to those 
agreements because, as Nancy has pointed out, with no revenue, 
South Sudan will be in a terrible situation. And so, in that 
sense, we call both parties to the table and want them to do 
so. But there is no equivalency in the human rights violations 
and the history of it between the two.
    Mr. Smith. All right. Thank you.
    Ms. Bass?
    Ms. Bass. Thank you, Mr. Chair.
    I actually want to follow up. You were asking about Egypt. 
Since you asked about Egypt, it made me wonder about Libya, and 
just in terms of the flow of weapons. I don't know if that has 
been an issue in Northern Sudan. So, I don't know who I am 
directing that to, maybe the Ambassador, but I am not sure he 
heard my question.
    Since my colleague was asking about Egypt, it made me think 
about Libya. I was just wondering if there is an issue with the 
flow of arms from Libya into Northern Sudan.
    Ambassador Lyman. The problem of the arms flowing in out of 
Libya, because several of the Darfur, two of the Darfur rebel 
groups fighting with the Government of Sudan fought on the side 
of Gaddafi, it is believed that they have come out of that 
situation with considerable arms, although it doesn't seem to 
have had as big an impact on the fighting as we thought.
    The Government of Sudan, of course, then fought on the side 
of the rebels in Libya and was very concerned about that flow 
of arms. I don't think it has had as significant an impact on 
the situation in Sudan as it may have had elsewhere in the 
Sahel.
    There has an uptick in fighting in Darfur, but we have a 
feeling that that reflects the fact that the arm movements have 
taken advantage of the fact that the Government of Sudan had to 
move more troops over to Southern Kordofan, and they took 
advantage of that situation. But I don't think it has had a 
major impact.
    Ms. Bass. I see.
    And then, several of you have talked about the U.N. 
peacekeepers that are there. I just wanted to ask you a 
question about whether or not they are having any challenges 
having the tools that they need to carry out their mandate 
safely and effectively. And specifically thinking about South 
Sudan, with just 68 miles of paved road, with a territory about 
the size of France, helicopters are essential to the 
effectiveness. And then, with Russia's decision last year to 
withdraw eight helicopters, it contributed to this already 
being a serious problem. So, I was just wondering what was the 
status of that. Has it gotten any better?
    Ambassador Lyman. Yes, you are absolutely right; without 
helicopters, they can't move rapidly at all. They have been 
able to replace most of the helicopters that the Russians 
withdrew.
    But it did come at a time when there was a great deal of 
conflict in Jonglei. It really did slow UNMIS down. It is a 
very difficult area to get around, particularly rapidly.
    Now what the UNMIS has done is that they have stationed 
their people out much more than traditionally is done. And so, 
they can respond faster. But it is going to get harder in the 
rainy season. So, the helicopters become essential. It is also 
true for the government forces to move around.
    In Darfur, the main problem has been when the government 
denies access because they say security conditions are such. It 
doesn't happen often, but it happens whenever there is 
fighting, and it slows down UNAMID's ability to respond 
quickly. That has been raised with the government over and over 
again. I think that is the main problem they have had. They 
have had other logistic problems, but in Darfur that has been a 
problem.
    Ms. Bass. So, you were referencing the access earlier. I 
think you said humanitarian access, if it was announced, the 
fighting will stop. Could you explain a little bit more about 
that? And I think it is connected to what you were just saying. 
I didn't understand what was blocking the access.
    Ambassador Lyman. In the two states of Southern Kordofan 
and Blue Nile, which are part of Sudan--they are not part of 
South Sudan--fighting broke out there last June, I think it 
was, May or June, after an election that was contested. And the 
fighting has gone on ever since by what is called the SPLM-
North. That is the people who come from Nuba Mountain and from 
Blue Nile, from the Southern part of Blue Nile, but fought on 
the side of the South during the civil war. But they are now 
part of Sudan.
    That is the area where, as Nancy described, we see a major 
humanitarian crisis because the Government of Sudan, these are 
their own people, but they have not allowed international 
humanitarian access. We have talked to the SPLM-North. In fact, 
I talked to them quite recently. They said, ``Please, you can 
say publicly that, if the government would announce that they 
are accepting this approach to humanitarian. . . .''----
    Ms. Bass. I see.
    Ambassador Lyman. [continuing]. ``We would agree to 
cessation of hostilities in order the food gets into people,'' 
et cetera. So, that was what I was referring to.
    Ms. Bass. I see. Thank you.
    And then, also, in terms of the international effort and 
support, you mentioned, Ms. Richard, I believe, that, of 
course, the United States is carrying the majority of the 
burden, but who are the other major players? And what is the 
relationship in terms of funding? Are we carrying 90 percent, 
50, 60?
    Ms. Richard. Yes, generally, in most refugee crises, the 
United States provides a quarter or more, depending on our 
interest level--and thank you all for having such a great 
interest level in this--of the international appeals that come 
out.
    The other major donors are the same major donors that 
respond to most of the U.N.'s appeals. So, you are looking at 
Western Europe and the sort of G8 countries funding that.
    What the High Commissioner is trying to do is reach out--
and perhaps this gets back to your question, Chairman Smith--
and find new donors, get more countries involved in this, get 
them engaged in this, getting them to be productive and make 
this more of an international effort. He said, or his Executive 
Committee, which are the member states that take a particular 
interest in UNHCR, the size of that has been growing, which is 
a good sign. But now we need to see that growing on the dollar 
side, too.
    Maybe Nancy Lindborg can talk about some of the aid flows, 
and Ambassador Lyman can talk about the contributors of 
peacekeepers.
    Ms. Bass. Thank you.
    Ms. Lindborg. Yes, there is a very engaged group of donors 
both for South Sudan and for Sudan. In South Sudan, there is 
what is called the troika of Norway, UK, and the U.S. That has 
been very involved with ensuring that there is the kind of 
funding that is needed to move toward peace.
    Ms. Bass. African nations?
    Ms. Lindborg. Not so much on the donor side. Certainly 
involved with the larger efforts of----
    Ms. Bass. Peacekeeping?
    Ms. Lindborg. Right, of peacekeeping, and hosting of the 
refugees.
    I would say that the big frame to communicate is that this 
has been a multi-decade effort with many, many international 
providers of assistance, both regionally and from the donor 
community. There was a lot of enthusiasm for the pathway of 
peace that it opened up and great concern that, because of the 
escalated conflict, because of the cessation of the oil 
revenues, that we are moving seriously backwards.
    Ms. Bass. My colleague mentioned China. I know President 
Kiir was just there and came home. I was really surprised he 
was there at all, I mean, you know, considering the fighting 
going on.
    So, a couple of questions. What is China contributing 
toward this effort? I didn't hear you mention them. And then, 
also, I mean, I know one of the reasons why he was there is 
because they would like to have the oil not go to the North. 
They would like to develop the capacity for it to go South. 
What would be the timeframe in that? Do we know anything that 
resulted from his trip to China, even though it was aborted?
    Ambassador Lyman. Thank you.
    Before that, just to mention on the peacekeeping forces, if 
you put all three of those peacekeeping operations together, 
you have about 50 countries contributing. African countries are 
very prominent in that regard: Nigeria, Rwanda, Ethiopia, et 
cetera.
    Ms. Bass. Thank you.
    Ambassador Lyman. The force commander in UNAMID is a 
Rwandan general. The force commander in Abyei is the Ethiopian 
commander, and the UNMIS is a Nigerian commander. So, Africans 
play a very prominent role in the peacekeeping.
    On China, I think they do have a small contingent in 
UNAMID, engineering I believe. But their real world is 
political and economic. They are roughly a 40 percent owner of 
the major oil industrial companies there, and particularly in 
the pipeline.
    I am not sure that their interest is really in seeing an 
alternate pipeline to the South because most estimates that I 
have seen are that that is 3 to 5 years away. Meanwhile, they 
have got this huge investment.
    Ms. Bass. Right.
    Ambassador Lyman. So, only by an agreement between the two 
countries to resume production and export through Sudan is 
China's interests served in the near future.
    I don't have the results of the trip President Kiir took. 
So, I don't know what may have come out of that. But in our 
conversations with the Chinese, they definitely want peace and 
security in the area because, otherwise, the oil sector can't 
go back into production.
    I think that has to mean that China has to, along with 
others, address some of these fundamental political issues 
which are the source of the insecurity and use their long 
relationship with Sudan and President Bashir in this regard, as 
well as the relationships they are developing with the South.
    Ms. Bass. I think both the chair and I would like to hear 
from you when you come back from China as to what happened.
    I have other questions. I don't want to take up any more 
time. So, let me just ask one final question.
    What more do you think the United States should be doing? 
And that is for anybody. What more do you think the United 
States should be doing? Is there anything more we should be 
doing? Are we doing everything?
    Ambassador Lyman. First of all, my staff tells me it is 40 
countries, not 50, contributing to the peacekeeping. So, I have 
got to get it straight.
    Ms. Bass. Oh, thank you.
    Ambassador Lyman. But it is a question we ask ourselves all 
the time. I was just in a meeting yesterday of our senior 
deputies from all our agencies on Sudan, a Deputies' Committee 
meeting, and that was the question that we all looked at. What 
more can we do?
    What we are trying now is to mobilize people from around 
the world to put pressure particularly on Sudan, but on South 
Sudan, to get back to the negotiations, to reach agreements. We 
are providing a lot of technical support to the actual 
facilitation/mediation by Kabul and Vecchi.
    The aid agency is doing an extraordinary job of responding 
to the humanitarian situation, as much as we are able to do, 
and has been creative in doing so.
    I would welcome ideas that we could do more. Because we 
don't have contact with President Bashir, we obviously are not 
in the position of being the mediator that brings the two 
together, but we do have contact with many senior people in 
Khartoum.
    We look at that, and, Congresswoman, any suggestions from 
the committee would be welcome. We ask ourselves this literally 
all the time. I appreciate it.
    Ms. Bass. Thank you very much.
    Ms. Lindborg. Congresswoman, I would just add that we have 
long been a leader in provision of assistance, thanks to the 
generosity of the American people and with your leadership. 
Last year, we put about $440 million into South Sudan and 
Sudan, primarily Darfur, and continue to work to mobilize 
response from our donor colleagues and to ensure that we are 
continuing to mobilize in the face of great need.
    The sad sort of benefit of all of that is that, when these 
crises flare up, we do have a lot of capacity on the ground and 
the ability to move food or people to move quickly, when new 
fighting flares up, whether it is on the border in Abyei or in 
Jonglei. Even though it is an extraordinarily difficult 
operating environment with, as you noted, very few roads, we 
have the ability to meet immediate humanitarian needs. The 
concern is that they are growing.
    Mr. Smith. Mr. Royce?
    Mr. Royce. Mr. Chairman, thank you very much.
    Even after Southern Sudan has withdrawn its troops from 
some of the disputed areas, Khartoum has continued to send the 
Antonovs and rain the bombs down. This would include bombing 
civilian areas.
    I had an opportunity some years ago in Darfur, Sudan, to 
visit Tine that had been bombed by Antonovs. I saw what that 
did. We talked to, by the way, survivors of various attacks by 
the government forces.
    President Bashir is using the type of language again, 
talking about going after the ``insects'' in the South, as he 
calls the people of the South, rallying his troops, clearly, 
doing what they know how to do in terms of genning people up to 
do what they used to do with the Janjaweed. So, this is an 
incredibly dangerous situation right now, from the activists 
that we talked to on the ground in South Sudan, relaying to us 
their concerns about how this plays out.
    I wanted to ask you, Ambassador, the oil cutoff, the 
renewed operations down there have got to be weighing on 
Khartoum, given what we know about the machinations within that 
capital and the problems that beset that government. Some have 
speculated recently that that might trigger a change within 
Khartoum.
    Do we have a window on what is taking place in that 
capital? Do we have any insights? And do we have any 
contingency planning for any scenario, should such an event 
occur?
    Ambassador Lyman. I am glad you raise this because we talk 
about the impact of the oil cutoff and crisis on South Sudan, 
but it is also very, very serious for the economy of Sudan. If 
you just look at the exchange rate, having gone from the 
official 2.9 or something to 7, you know that prices are going 
up; people are experiencing shortages, fuel shortages, basic 
commodities. They don't have the foreign exchange to import 
food. They usually import a lot of food.
    The economic consequences in Sudan are very great. And you 
have to get outside of Khartoum to really appreciate it because 
there is kind of a surface normalcy in Khartoum, but if you go 
out to the rural areas or even talk to people who are 
struggling in Khartoum, you realize the economic problem is 
severe.
    There are people in Khartoum and Sudan who understand that 
they face a major economic crisis. The loss of revenue and the 
failure now to have a functioning collaboration with oil is 
just making the foreign exchange situation even worse.
    In our view, for a government to continue to fight in 
Darfur, in South Kordofan, in Blue Nile, et cetera, when their 
economic situation is so severe, is a dangerous and bad policy 
for their own people.
    Mr. Royce. Right, right.
    Ambassador Lyman. I can't tell you what it may do 
politically in Khartoum. I don't have that kind of inside 
understanding. But I do know from people that have spoken out 
publicly, that have talked publicly, that there are people who 
think this set of policies is not the right direction for 
Sudan.
    Mr. Royce. Right.
    Ambassador Lyman. Now whether that translates into changes 
of the policy, I can't tell you.
    Mr. Royce. Well, we don't know, but the point you make is 
that pragmatists are being sidelined on both sides of the 
border. The point I would make is you want to permanently 
sideline the hardliners that are sidelining the pragmatists. To 
do that is going to take a more proactive communication 
campaign into Khartoum, broadcasting into Khartoum, as we used 
to do in Poland or in Russia, you know, in East Germany, where 
you take advantage of the situation on the ground.
    You give people information about the situation on the 
ground. You talk about the crisis that is being created by bad 
governance. You give them an alternative. You suggest that 
alternative. You have got to be more proactive on that. It is a 
non-confrontational way, if you are proactive, to offer out a 
different scenario.
    The last question I wanted to ask is, in your testimony you 
talk about everybody speaking with one voice on the issue. I 
was going to ask you, have the Arab states or the OIC, are they 
on that page? Have they spoken on those issues?
    Ambassador Lyman. We did a major outreach to all the 
members of the Arab League just in the last 24 hours, 48 hours. 
They are meeting right now in closed session.
    What we have urged them to do is to be in total synch with 
the African Union's approach to this that they enunciated the 
other day. I have not seen the communique coming out of that. I 
hope it will be as close to the African Union approach as 
possible, so that we get their collaboration and speaking, as I 
say, together. And then, we want the same from the U.N. 
Security Council.
    So, I will let you know once I get a sense of what has come 
out of the Arab League meeting.
    Mr. Royce. Thank you, Ambassador Lyman. I appreciate it.
    Thank you, Panel.
    Mr. Smith. Thank you, Mr. Royce.
    Congresswoman Lee?
    Ms. Lee. Thank you very much.
    Let me just follow up on a couple of questions that were 
asked earlier in terms of what else the United States could do. 
I know for many, many years many of us have been concerned that 
we could not do as much--and I am not talking about the 
humanitarian front right now because we recognize and 
appreciate the level of humanitarian intervention and 
contributions this country is making. But we haven't been able 
to figure out, given our relationship with the Sudanese 
Government as it relates to cooperation on matters of 
terrorism, because we are in contact with--it may not be 
Bashir, but it is his government. How does that hamper or 
hinder what we are trying to do now and what they are trying to 
do in terms of this new escalation of war? So, that is the 
first question.
    Then, secondly, China, for many, many years we have been 
encouraging our Government to use more leverage with China, so 
they could use more leverage with the Government of Sudan in 
how they are moving forward, not only with the implementation 
of the CPA, but the new war that has taken place. And I think 
it is a war. I think that we haven't been as assertive as we 
should have been and as we should be. I am pleased to know that 
the administration and you are going to be talking with the 
Chinese at the meeting that is coming up.
    We actually had 68 Members of Congress sign a letter asking 
the President to engage in discussions around this new 
eruption. And so, we are very pleased to have that.
    Mr. Chairman, I don't know if it is appropriate, but I 
would like to have that letter inserted into the record.
    [The letter referred follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Ms. Lee. And finally, let me just ask, in terms of the 
political obstacles that are preventing the humanitarian 
assistance and intervention, what are those political obstacles 
as you see them? I know oil is one in Heglig. I mean, we know 
that. But what are some more obstacles that we see that need to 
be removed?
    Ambassador Lyman. Thank you so much.
    On the first question, there is a degree of cooperation on 
terrorism because the Government of Sudan finds that in their 
interest as well. But the big types of cooperation that might 
be possible between our two countries cannot take place while 
they remain on the list of state sponsors of terrorism, and 
they remain on that list. They have not met the conditions that 
we feel are needed to do so.
    They would like more cooperation in that area. It would 
serve our interests if we could do it. But, until we can get 
satisfied that the conditions are right to do that, we can't go 
forward with that.
    It doesn't impact, quite frankly, because I work on this 
every day, it doesn't change our way that we approach the 
issues of North-South issues, of Southern Kordofan and Blue 
Nile; it really doesn't.
    The point is that their continuing to be on the list of 
state sponsors of terrorism is something that we say to them, 
if you want to come back into the international community in 
good graces, dealing with issues like Southern Kordofan and 
Blue Nile on a political basis, allowing humanitarian access, 
not doing, as Congressman Royce mentioned, the constant use of 
bombing on civilian targets, then the full ranges of 
cooperation not only in security matters, but in economic 
matters, could take place. But we can't do it under these 
circumstances. We have had very candid conversations with them 
on that.
    On China--and the letter was a valuable letter--when Vice 
President Xi came here from China just a couple of months ago, 
the President and Secretary of State said, ``We need to 
cooperate on Sudan. We need to join together on this.''
    And then, President Obama talked to President Hu when they 
were at the meeting in Seoul on nuclear issues and agreed that 
this had to be a priority.
    As I have mentioned, I have been in regular contact with my 
counterpart there, the Special Envoy. But, also, when I travel 
in the region, I always stop to see the Chinese Ambassadors in 
Khartoum, in Juba, in Addis Ababa.
    Next week, when the Secretary goes to China, this will be 
high on our agenda as well.
    So, I think the cooperation with China is picking up very 
rapidly. I think their reluctance traditionally to get involved 
in political matters in countries in which they are doing 
business, here they recognize that they can't serve their own 
interests as well as everybody's if they don't. I think that 
cooperation is building up.
    On the political obstacles to humanitarian access, what the 
government of Khartoum claims and argues is, if the food goes 
into those areas, it will prolong the fighting because part of 
it will get to the military, no matter what, and will 
strengthen their desire to keep fighting.
    Second, they have this memory in their view that, once the 
humanitarian community enters in, then comes the U.N. 
peacekeepers. Then, they lose their sovereignty. Their view is 
that this was part of an attempt to carve off more of their 
country or at least reduce their control over it.
    We have tried to deal with that in many ways, like I said, 
this tripartite proposal which has the League of Arab States 
and the African Union and the World Food Programme. I think 
Congressman Royce said that there are hardliners sort of 
driving policy right now in Khartoum. In spite of all of the 
efforts to convince them on this, they still have not allowed 
that. I think those are the reasons driving them in that 
regard, but I think they are wrong.
    Ms. Lee. But in terms of international, bringing more 
attention to the world as to what is taking place now, we 
remember what happened with Darfur. It took a while for the 
world to really recognize that genocide was taking place. And 
many of us have visited Darfur many times and have been in the 
refugee camps, but you don't see the visual. You don't see the 
suffering, and you don't see the starving and what is taking 
place.
    I am wondering if there has been a problem with media 
access, and if, in fact, the Bashir government, because of what 
happened around Darfur and the world came together, are they 
using different tactics now in terms of media access and 
preventing the rest of the world from really understanding what 
is coming, what is getting ready to come down if we don't take 
some action very quickly?
    Ambassador Lyman. You know, it is exactly right. There is 
no free media access. Some journalists have gone in on their 
own. Nicholas Kristof went. Alan Boswell has gone, some others, 
and they have written about it.
    There has been more interviewing of refugees to get a 
better sense, and you will see various reports have come from 
George Clooney, from Human Rights Watch, from others, 
particularly interviewing refugees and illustrating these kinds 
of problems.
    I do think--and we have worked very hard on it over the 
last 6 months--we have generated a great deal of unified 
international opinion on this. In almost every statement coming 
out of other countries now and out of the AU, it is to the 
government: You must allow humanitarian access to these areas. 
But you don't get all the pictures and attention that took 
place in Darfur, and partly because access is so difficult.
    Ms. Lee. Thank you, Mr. Chairman.
    Mr. Smith. Ms. Jackson Lee?
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I want 
to thank you and Ranking Member Bass for this hearing and this 
oversight, which I think is crucial.
    Just in memory of our fallen colleague, Congressman Payne, 
we are reminded of the great excitement of the inauguration of 
the new nation of the government, the new nation of Sudan, 
Southern Sudan.
    Let me, just as a point of personal privilege, thank, 
Ambassador Lyman, yourself, and, of course, the representatives 
of USAID and the State Department, but also the journalists. I 
note that Ellen Ratner is in the room, who visits this region 
quite frequently. But the journalists have not, many of them 
have not persisted in the story.
    Even, Ambassador Lyman, the good news and the bad news, but 
certainly to continue the thought, I will just say to you that 
I have had an experience--and I can say it now because I am 
back here in the United States--where I was refused entry into 
Khartoum, meaning that I was in Chad waiting and waiting and 
waiting for a visa, having been to at that time the refugee 
camps in Chad, which were, if you will, raw and extreme, if 
anything; women and children living in almost dust bowls. But 
we certainly appreciated the fact that there was a welcome mat 
somewhere for them.
    And I had wanted to go into Khartoum, and it just shows, of 
course, there have been incidences when we have come. But say 
that this was the first time around, and just happened to slip 
across the border because we had waited. We had tea. We waited 
into the night for the visa to come. It was on its way; it was 
on its way. Just to at that time dialog with the African Union 
troops that were there.
    Subsequently, I went into Darfur with all the necessary 
credentials on another occasion, but, then, sat down and saw or 
listened to stories, to recall our memory, Mr. Chairman, of the 
women who were brutalized as they left the camps to pick 
firewood. We seem like we overcame that, even though I don't 
think we fully resettled those individuals. And you were 
certainly right at the head of leadership.
    Now we have Southern Sudan, and we now know that across 
that region there is disruption; there is difficulty. So, I 
know this may have been answered, but I want, if you will, a 
thorough approach to it in respect to the Heglig crisis and its 
aftermath. What accounts for the rapid escalation of that 
conflict between Sudan and Southern Sudan leading to South 
Sudan's occupation of Heglig? And please describe the military 
situation to Southern Sudan's withdrawal from Heglig? What is 
your assessment based on military operations and troop 
movements in the field, whether we are seeing indications of a 
return to full-scale war between the two governments?
    In the midst of that is the unmerciful treatment of human 
beings. I will add a leverage. What is happening to the women? 
Are they still being raped? Are they still being abandoned 
because men have gone or men are victimized, so women are sent 
forward?
    And do you take seriously and at face value the Sudanese 
Government's assertion that it is intent on ousting the 
Southern People's Liberation Movement that we have known for a 
long time? And to what extent are the conflicts in Southern 
Kordofan and the Blue Nile linked to or likely to shape the 
outcome of the military situation from the Heglig conflict, if 
you would? And I have a question for the other representatives.
    But, Ambassador, thank you for your service. It has been a 
long time.
    Ambassador Lyman. Well, thank you. Thank you very much, and 
for your continued interest in this, as you have.
    What sparked, I think, the occupation of Heglig by South 
Sudan was a frustration that really extended over a long period 
of time of clashes on the border and bombing across the border; 
that they felt they were being pushed, and when they exercised 
restraint, it didn't stop.
    They went into Heglig earlier in March and then withdrew, 
and then the bombing continued and the fighting continued. And 
they just said it is enough, and they wanted to react much more 
strongly.
    The problem was, as we and others told them, that by doing 
that, they had raised the conflict to a new level because they 
occupied an area of enormous strategic importance to Sudan and 
could have increased the kind of--you know, before then, 
neither had attacked the other's oil facilities. It could have 
gotten totally out of hand. They would have committed mutual 
economic suicide.
    They did agree to withdraw, but the government pursued them 
in doing so, bombed across the border, and generated a 
situation which has calmed down. It has been much quieter on 
the border the last 2 days. Both sides are now getting ready to 
respond to the African Union's demand for cessation of 
hostilities. They gave them 48 hours to respond. They are 
supposed to respond today.
    As I said earlier, I don't think--and I have talked to 
people in the governments in both places--that people really 
want or governments want to go to full-scale war. Neither one 
can afford it, can sustain it. That doesn't mean that they are 
not prepared to engage in conflict over what they see as their 
security conditions/issues on the border.
    And those are related to the conflict in Southern Kordofan 
and Blue Nile, which the Government of Sudan continues to 
characterize only in military terms, not in political terms, 
and which the Government of South Sudan says, ``We can't have a 
border which is used to send militias into South Sudan.''
    So, until they can get a handle on the security of that 
border, the danger of those clashes continues. Right now, I 
think the military on both sides, they have largely pulled back 
across the line that they both use. We are hoping that that, 
plus the rainy season, will lead to a lower level of conflict 
than we have seen and, hopefully, open the door, create a 
climate, if you will, for more political talks.
    Ms. Jackson Lee. This question is for everyone, starting 
with Ms. Richard. Is Khartoum the same old Khartoum? Both South 
Sudan and Khartoum indicate that one or the other is backing 
the rebels. Give us the true and honest level of the 
humanitarian crisis. What level of crisis do women and children 
find themselves in? If you are note-taking, is it time to--it 
looks as if Southern Sudan has gotten its muscle--but is this 
another moment of intervention, the African Union, 
peacekeepers? Are we letting this fester, so that we find 
ourselves in an enormously sad humanitarian crisis?
    Ms. Richard?
    Ms. Richard. Well, Congresswoman, I am going to defer to 
Ambassador Lyman to answer your question about Khartoum.
    On your question about the scale of the crisis, I think 
that this hearing makes very clear that this region can be like 
a tinderbox. And so, smaller skirmishes have the risk of 
reigniting war.
    We can see how many people currently, as we have talked 
about these different groups of people who have been displaced, 
you know, different people right now are suffering throughout 
this region.
    I visited a year ago in the summer, right before the 
Independence Day. I was there a couple of weeks in advance in 
Juba talking to colleagues and trying to get a fix on the 
prospects for peace in South Sudan. And it was such a hopeful 
time, you may recall----
    Ms. Jackson Lee. Yes.
    Ms. Richard [continuing]. After so many years of war.
    What really came through to me was the incredible needs of 
the people in South Sudan. There is a great deal of illiteracy. 
There are not sufficient educated people to run the government 
ministries, to provide the services that so many people need.
    I saw people returning from the Khartoum area in very large 
boatloads coming down the Nile to start their lives over in the 
South. As we have heard today from my colleague, Nancy 
Lindborg, these people are trying to start over, trying to 
become farmers, trying to have livelihoods. The needs to 
educate their children, some of whom have never lived in the 
South before and were born in the North, were born in Sudan 
itself; the needs are very, very great.
    So, to take the very tough prospects for achieving economic 
development, for achieving an educated and healthy citizenry, 
and then to toss all of that back into violence and conflict, 
that is just absolutely the wrong direction.
    Ms. Jackson Lee. Thank you.
    Ms. Lindborg?
    Ms. Lindborg. I would echo much of what my colleague has 
just laid out. You know, these are people who have borne 
enormous hardship for decades. There was precarious peace going 
forward. We knew it would be difficult. We knew it would take a 
long time.
    But there have been gains over this year since the CPA was 
put into place. What used to be 20 percent children in school 
is now 68 percent. Many more millions of people have achieved 
access to water, to health, to basic services. Much of that is 
in jeopardy right now because of the lack of oil revenue; 98 
percent of South Sudan's budget stems from oil.
    As the conflicts escalate, both the North and the South are 
putting their people in peril. We are losing what precious 
developmental gains were made in South Sudan. Between Darfur, 
Abyei, Southern Kordofan, Blue Nile, the intercommunal fighting 
in Jonglei, and the 4.7 million people, half the population of 
the South, of South Sudan, who are food-insecure, you have 
about 8 million people who need humanitarian assistance. That 
is a huge number of people.
    As the conflict escalates, and there is no oil revenue to 
provide even basic services by the government, there will be 
the potential for adding to that 8 million because they are not 
otherwise able to move forward with their lives. They are not 
able to go to hospitals or go to schools that the government 
previously was supporting.
    So, it is imperative that we pull back to peace and that we 
find a way forward because of the burden that is placing on the 
women and the children, and a history in that region of 
marginalizing vulnerable communities.
    The challenge is enormous. The stakes are very high. The 
solutions will not be military.
    Ms. Jackson Lee. Thank you.
    Ambassador Lyman was going to finish. Ambassador Lyman, 
could you just throw in--not to throw in--but the 
dysfunctionalism of the energy industry, because many don't 
understand it is not functioning? And if you know anything 
about the burden on women and children?
    Ambassador Lyman. Well, as Nancy has said earlier, when you 
get into large scale food-insecure areas, women and children 
are often the ones who suffer first and foremost. We can see 
that in the refugees coming out, and many of them are women and 
children. In a war situation, clearly, they are very much in 
danger.
    You asked about Khartoum; is it the same old Khartoum? Here 
is a situation where Khartoum had an opportunity to develop a 
productive and positive relationship with South Sudan. You will 
recall that President Bashir came to the independence ceremony 
and was well received and said all the right things.
    But every time there is a sharp difference or a crisis, 
there is kind of a default back to let's use military power; 
let's use our bombing; let's use the gun, et cetera. And that 
brings out all the worst characteristics from that regime and 
makes it very hard to deal with these problems in the right 
way. It is almost like you have a Jekyll-and-Hyde situation 
sometimes.
    So, what has to happen in Khartoum is--and Thabo Mbeki 
phrased this extremely well in a lecture he gave in Khartoum in 
November 2010. He said, even with the secession of the South, 
Sudan is a diverse country, and therefore, it has to be 
governed as a diverse country. That means there has to be 
political change in the way Sudan governs itself.
    That is the fundamental issue. It is the issue that the 
Sudanese must address because, otherwise, there will always be 
trouble in the Darfurs and the Southern Kordofans and other 
places. And that hasn't taken place.
    I think there are a lot of people who understand that in 
Khartoum, who know it has to take place. But that is really the 
challenge. Thabo Mbeki phased it very well and he has spoken 
out on that many times, as have others.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    And my last word to you, Ambassador Lyman, we are not, the 
United States and its policy, going to abandon this region. We 
are going to stay engaged in the fight, if you will, a 
nonviolent fight on behalf of this region, this area.
    Ambassador Lyman. I can tell you that the White House is 
all over me every day.
    Ms. Jackson Lee. Excellent. [Laughter.]
    Let me join in that, in a way of strengthening you.
    Mr. Chairman and Ranking Member, thank you for your 
kindness.
    Mr. Smith. Thank you very much.
    Mr. Green?
    Mr. Green. Thank you, Mr. Chairman. I want to salute you, 
Mr. Chairman, and the ranking member as well, for hosting this 
important area. Mr. Chairman, I would also compliment you on 
some of the positions that you have taken. They have been very 
meaningful to me personally.
    I did go to Darfur, and I saw the throngs of people living 
on the ground and off of the land. There is no substitute, I 
think, for seeing some of these things as they develop.
    I want to compliment the witnesses here today for the 
intelligence that you have accorded us.
    My friend, Congresswoman Jackson Lee, has served with this 
committee and has traveled to these places many more times than 
I, but I think that she never tires. My suspicion is that she 
will be back before I will. So, I want to compliment her as 
well.
    I have just a very few questions. So, I will be as pithy 
and concise as possible, but I don't want to be so terse and 
laconic as not to make a point.
    Let's start with the oil and how it flows. It is in the 
South, but it flows through the North. If there is a change in 
the direction, and if the South somehow manages to have access 
to another means of moving the oil, how will this impact, if 
you can prognosticate to this extent, or just the thought by 
the North of losing the opportunity to have the benefits that 
flow from the oil, how will this, if you can prognosticate, 
impact this concern that is already at a crisis level, as far 
as I can see?
    Mr. Ambassador, would you care to give an answer first?
    Ambassador Lyman. Thank you.
    For the South, if it had an alternative way, it would not 
feel that it had such a difficult situation with a regime that 
they often have great difficulty with, including on oil. But 
the prospects, the possibilities of doing that are not short 
term. People I have talked to, people who are oil experts, 
engineers, et cetera, looking at the types of soil that would 
be involved in Sudan or the mountains in Ethiopia, looking at 
alternate routes, estimate 3 to 5 years and a very expensive 
proposition. It doesn't mean that someday it can't be done, but 
it is not a short-term solution to the problems that Nancy 
outlined with the government that needs revenue.
    It is in the interest of both countries to have this sector 
run. They both benefit. I think Sudan would lose a lot if South 
Sudan ended up unable to have a satisfactory and assured 
relationship with the Government of Sudan about the oil flow.
    They get fees. They get processing fees. They get access to 
oil for the refinery. There is also in this negotiation a 
payment from the South to ease the loss of oil revenue that 
came from the CPA. All of that is in the very high priority 
interests of Khartoum.
    I think there are a lot of people there who know it. But 
the negotiations which were very promising a few weeks ago have 
been set way back. So, I am hoping that kind of rationality on 
both sides says, ``Look, we don't like each other very much, 
but we both are hurting our people and ourselves by not being 
able to function.''
    If the oil reserves are such in South Sudan that it would 
also justify an alternative, that is a possibility, but it is 
not a near-term one. For South Sudan to put all its chips on 
that means they would go years without any revenue. That, we 
think, is very dangerous.
    Mr. Green. I see.
    With reference to the humanitarian crisis, the prospect of 
food moving in over land is a good one. I like the idea, and I 
think this is the way most NGOs would like to move large 
amounts of food as well as other humanitarian substances. The 
question, however, is about airdrops. In a time of great 
crisis, I understand that you have others who will try to take 
the food. But if we can find out where people are, which can be 
difficult, airdrops of food into an area where you have a 
humanitarian need has been used before. To what extent is this 
available to us, given the 200,000 people that may be near 
starvation?
    Ms. Lindborg. Well, you want to look at all of the options. 
One of the concerns with air operations is that, for those of 
you who remember Operation Lifeline Sudan, which was critical 
for many years, it did have agreement on both sides that it 
would operate. So, for those kinds of operations to really have 
the impact that we want and need them to have, you really need 
to have that sort of agreement to enable the airdrops to be 
effective, to reach those who need it the most.
    Mr. Green. May I assume that we are seeking approval of 
both sides for airdrops? I know that there is some 
consternation about having NGOs, or especially Westerners, come 
into the country. With an airdrop, you don't have to touch the 
ground, but food gets to the people. Are we negotiating along 
these lines?
    Ambassador Lyman. We haven't emphasized the airdrops, 
Congressman, because if they would approve the proposal on the 
table, the World Food Programme group could bring in so much of 
the needed food. Airdrops would not be able to do nearly as 
much.
    I think the government would have great objection to 
airdrops. I think it would be very hard to get their approval. 
They would consider it a hostile act. That doesn't mean they 
are right; don't get me wrong. But I think it would be a hard 
thing to get them to approve.
    I just wish they would approve the most logical and most 
effective way, which does not involve western NGOs, which does 
not involve anyone but people they trust as doing it for 
humanitarian purposes. I think we have to keep pushing them on 
that. It is the most useful possible way to do it, as well as 
other things that one looks at.
    Mr. Green. My final comment has to do with China. Countries 
do what they believe to be in their best interest. I am 
confident, Mr. Ambassador, that you are explaining that this is 
in the best interest of China, the world, but China benefits 
from oil. And they are getting an amount of oil from Sudan now.
    So, we have had it requested of us--and I know that the 
request has been echoed to you, but I will just reiterate; 
sometimes things bear repeating--please take advantage of the 
opportunity when we have our high-level meetings to make the 
request in your way to make sure that China understands that we 
desire that they help us with this crisis that is looming in 
Sudan. And it is to their advantage to do so, I believe, but I 
hope that you will continue to exercise your good office's use 
of this type of diplomacy.
    While we are thanking people, I do want to thank Mr. 
Clooney, who did go in at some considerable risk to bring back 
some empirical evidence of the atrocity that is taking place. I 
don't ever want to discount what good Samaritans do, and I 
consider him a good Samaritan for what he has done at some 
considerable risk.
    So, thank you for what you are doing.
    And thank you, Mr. Chairman, Madam Ranking Member.
    I yield back any time that I may have.
    Mr. Smith. Thank you very much, Mr. Green.
    Ambassador Lyman. I would say one thing on the China thing. 
I assure you that the Secretary is leading our high-level 
dialog next week. Sudan remains very high on her agenda, and we 
will be making those points next week in Beijing.
    So, thank you very much, Mr. Congressman.
    Mr. Smith. Thank you.
    And just to reiterate or echo Mr. Green's comments on 
airdrops, I would agree that they are part of the solution, 
especially for the harder to reach when access is denied. I 
hope that will be robustly promoted.
    I remember when the killing fields were occurring in South 
Sudan, remember the loss of 2 million people. We had UNICEF 
testifying in 2172 Rayburn, and many of us pressed very hard 
that the international community was doing far less than it 
could to get permission from the Khartoum government to allow 
those to go through. They had absolute veto power, and missions 
would be deployed or not based on their willingness to allow it 
to happen. And people would die when the airdrops didn't occur.
    So, I know it is on the table. At least I hope it is. I 
hope it is even more so, because if you can't get a team in, 
you know, you can drop meals ready to eat and a whole lot of 
other things that in the short term could absolutely sustain 
life. And so, I do hope that is being looked at.
    I would also like to ask if the faith community is being 
adequately included with the AU High Implementation Panel, the 
players themselves, whether or not the mullahs and the Catholic 
and Anglican bishops, who I know in terms of the provision of 
healthcare and ensuring that people get food to eat and 
medicines to help cure, are, if not our best, certainly are at 
the very top of people we need to be partnering with. I am 
wondering, are we working with them closely on the ground to 
make sure that the refugee camps as well as at other places, 
that money is going to faith-based NGOs that are doing this 
work, particularly indigenous faith-based NGOs?
    But, Ambassador, if you could speak to whether or not the 
faith community is being pulled into this in a way that it is 
certainly capable of helping to bring about a more positive 
outcome?
    Ambassador Lyman. They have played a very significant role 
in the peace process within South Sudan. You know, this 
terrible conflict that took place between the Nuer and Morley.
    And it is the religious community that is playing a major 
role in bringing the communities together. That is true in 
other parts of South Sudan as well. They also play--and Nancy 
can speak to that--they also play a major role in delivering 
services.
    We are also reaching out now to the faith-based communities 
internationally, as I had requested of the Congress, to make 
their voices heard to the leadership about the need for peace.
    But, yes, they are very active and extremely important in 
South Sudan particularly. But Nancy can----
    Mr. Smith. But, again, when the AU High Implementation 
Panel meets, do they incorporate and integrate----
    Ambassador Lyman. No. No, I can't say they do. You know, it 
is a negotiation sort of between parties. You don't see civil 
society there. You don't see faith-based. I think that has been 
unfortunate in this whole process.
    Mr. Smith. But it would seem to me that special faith-based 
envoys could play a big role as well.
    Ambassador Lyman. I think it is a very good point.
    Ms. Lindborg. I would just note that we work very, very 
closely with a number of faith-based organizations throughout 
South Sudan, in Darfur as well, where they are absolutely 
critical to saving lives, to ensuring that needs are met. They 
work closely with the faith-based leaders throughout South 
Sudan.
    We also just signed recently an MOU with the OIC's 
humanitarian arm. So, we can foster greater cooperation between 
the NGOs that USAID funds and the primarily Islamic groups that 
the OIC funds. It grew out of our experience of working side by 
side in Somalia, and we are looking to bring that globally.
    So, I think your point is a very important one, that we pay 
a lot of attention to the role that those organizations can 
play.
    Mr. Smith. Before we conclude, any----
    Ms. Bass. Yes, I would just like to thank you for all of 
your testimony and participating today. And again, Ambassador, 
we look forward to hearing from you when you come back from 
China.
    And I want to thank you, Mr. Chair, and also the members 
that participated. As all of you know, I am new in Congress. 
This is just my second year. I recognize that there are many of 
my colleagues on both sides of the aisle who have been working 
on this issue for many years, which is why we had extra 
participation today. I really appreciate your input.
    Thank you.
    Mr. Smith. Thank you, Ranking Member Bass, and thank you 
for your leadership. It is great to work with you.
    I want to thank our very distinguished panelists for the 
extraordinary service you render and your leadership, and for 
taking the time this afternoon to share that with us, as we 
work together in partnership.
    Pursuant to your recommendation, Ambassador Lyman, we will 
do that letter. I hope that has some impact.
    And I look forward to working with you going forward and 
appreciate it.
    The hearing is adjourned.
    [Whereupon, at 4:34 p.m., the subcommittee was adjourned.]


                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
